January 15, 2003

DANNY C. JACKSON
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – Sexual Harassment Prevention Measures in the Chicago
         and Detroit Districts – Great Lakes Area (Report Number LH-AR-03-001)

This report presents the results of our audit of sexual harassment prevention
measures in the Chicago and Detroit Districts, Great Lakes Area (Project
Number 02YG010LH003). Our overall objective was to determine if the districts
had adequate policies and procedures in place to prevent sexual harassment in the
workplace, and to effectively address sexual harassment complaints to mitigate
liability. This report is based on a self-initiated review, and is the first in a series of
ten reports we will be issuing regarding sexual harassment prevention measures Postal
Service-wide.

We found that the Chicago and Detroit Districts’ sexual harassment policies and
procedures were adequate, employees found responsible for sexual harassment or
inappropriate actions/comments were appropriately disciplined or corrective action was
taken, and managers/supervisors were considered for exclusion from the Pay for
Performance Program. In addition, although no Postal Service national policy existed
regarding the retention time for informal complaint files, both districts retained files
indefinitely and Chicago’s storage of files was adequate. We also found, however, that
some areas needed improvement. Specifically, most sexual harassment complaints
were not effectively addressed in both districts. However, Chicago District management
advised us that some action has been taken to correct the deficiency in this district. In
addition, the Detroit District did not centrally store files and management could not
locate some files when we requested them.

The report included three recommendations to help the Chicago and Detroit Districts
improve their sexual harassment prevention program. Management agreed with the
conclusions and recommendations and the actions taken or planned should correct the
issues identified in this report. Management’s comments and our evaluation of these
comments are included in this report.

The OIG considers recommendations 1 and 3 significant and, therefore, requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Chris Nicoloff, director, Labor Management,
at 214-775-9114, or me at (703) 248-2300.



B. Wayne Goleski
Assistant Inspector General
 for Core Operations

Attachment

cc: Suzanne F. Medvidovich
    Murry E. Weatherall
    Akinyinka O. Akinyele
    John H. Talick
    Susan M. Duchek
Sexual Harassment Prevention Measures in the Chicago                  LH-AR-03-001
 and Detroit Districts – Great Lakes Area


                                  TABLE OF CONTENTS

 Executive Summary                                                     i

 Part I

 Introduction                                                          1

     Background                                                        1
     Objective, Scope, and Methodology                                 1
     Prior Audit Coverage                                              1

 Part II

 Audit Results                                                         2

     Policies and Procedures Adequate                                  2

     Employees Appropriately Disciplined or Corrective Action Taken    3

     Managers/Supervisors Considered for Exclusion from Pay for        4
     Performance

     Most Complaints Not Effectively Addressed                         5
     Recommendations                                                   6
     Management’s Comments                                             6
     Evaluation of Management’s Comments                               7

     File Retention Adequate, Storage Needed Improvement               8
     Recommendation                                                    8
     Management’s Comments                                             8
     Evaluation of Management’s Comments                               9

 Appendix A. Objective, Scope, and Methodology                        10
 Appendix B. Management’s Comments                                    12




                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                 LH-AR-03-001
 and Detroit Districts – Great Lakes Area


                                 EXECUTIVE SUMMARY
 Introduction                 This report presents the results of our audit of sexual
                              harassment prevention measures in the Chicago and Detroit
                              Districts, located in the Great Lakes Area. This review was
                              self-initiated to determine if the districts had adequate
                              policies and procedures in place to prevent sexual
                              harassment in the workplace, and to effectively address
                              sexual harassment complaints to mitigate liability.

 Results in Brief             The audit revealed that the Chicago and Detroit Districts’
                              sexual harassment policies and procedures were adequate
                              and that employees found responsible for sexual
                              harassment or inappropriate actions/comments were
                              appropriately disciplined or corrective action was taken. We
                              also found that managers/supervisors found responsible for
                              sexual harassment or inappropriate actions/comments were
                              considered for exclusion from the Pay for Performance
                              Program. In addition, although no Postal Service national
                              policy existed regarding the retention time for informal
                              complaint files, both districts retained files indefinitely and
                              storage of files was adequate in Chicago. We also found,
                              however, that some areas needed improvement.
                              Specifically, most sexual harassment complaints were not
                              effectively addressed. Chicago District management
                              advised us that some action has been taken to correct this
                              deficiency in this district. In addition, the Detroit District did
                              not centrally store files and management could not locate
                              some files when we requested them.

 Summary of                   The report includes three recommendations to help the
 Recommendations              Chicago and Detroit Districts improve their sexual
                              harassment prevention program. We recommended
                              management, instruct the Chicago and Detroit District
                              managers to establish controls to ensure managers and
                              supervisors effectively address all sexual harassment
                              complaints and inappropriate actions/comments of a sexual
                              nature and fully document detailed evidence of the actions
                              taken to address complaints; ensure the Equal Employment
                              Opportunity office notify district management of all
                              complaints of sexual harassment or inappropriate
                              actions/comments of a sexual nature; and instruct the
                              Detroit District manager to ensure all informal complaint files
                              are stored in a central location.




                                                   i
                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago                             LH-AR-03-001
 and Detroit Districts – Great Lakes Area




 Summary of                   Management agreed with our conclusions and
 Management’s                 recommendations and has implemented or plans to
 Comments                     implement procedures that will assist the districts in their
                              sexual harassment programs. They said sexual
                              harassment and internal management investigation training
                              was provided in September and October 2002 to
                              representatives from all the districts in the Great Lakes Area
                              to assist them in effectively addressing complaints.
                              Additionally, management issued a letter in December 2002
                              instructing the Equal Employment Opportunity office to
                              notify the Human Resource manager upon receipt of sexual
                              harassment complaints. Management stated districts were
                              instructed in July 2002 that complaint files were to be
                              centralized in the district Human Resources office.
                              Management’s comments, in their entirety, are included in
                              Appendix B of this report.

 Overall Evaluation of        Management’s actions taken or planned are responsive to
 Management’s                 the recommendations and should correct the issues
 Comments                     identified in this report.




                                                   ii
                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                                 LH-AR-03-001
 and Detroit Districts – Great Lakes Area


                                              INTRODUCTION
    Background                       Sexual harassment is defined by law as unwelcome sexual
                                     advances, requests for sexual favors, and other verbal or
                                     physical conduct of a sexual nature that becomes a term or
                                     condition of employment. In fiscal years (FY) 2000 and
                                     2001, the Postal Service paid approximately $385,0141 for
                                     sexual harassment judgments and settlements in the Great
                                     Lakes Area.

    Objective, Scope, and            Our overall objective was to determine if the districts had
    Methodology                      adequate policies and procedures in place to prevent sexual
                                     harassment in the workplace, and to effectively address
                                     sexual harassment complaints to mitigate liability. Our
                                     objective, scope, and methodology are discussed in
                                     Appendix A.

    Prior Audit Coverage             We did not identify any prior audits or reviews related to the
                                     objective of this audit in these two districts.




1
    This amount represents seven complaints. None of these complaints were within the scope of our review.



                                                          1
                                               Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                                   LH-AR-03-001
 and Detroit Districts – Great Lakes Area


                                             AUDIT RESULTS
    Policies and        We found that the Chicago and Detroit Districts had
    Procedures Adequate adequate policies and procedures that should enable district
                        management to identify and prevent sexual harassment or
                        inappropriate actions/comments, and provide management
                        with guidance to respond effectively to complaints, thus
                        mitigating liability and costs.

                                   We also found that the districts:

                                        •   Established as district policies, Postal Service
                                            Publication 552, Manager’s Guide to Understanding
                                            Sexual Harassment, and Publication 553, Employee’s
                                            Guide to Understanding Sexual Harassment.

                                        •   Used Voice of the Employee surveys2 to monitor the
                                            work environment and when necessary provided
                                            additional training to raise awareness.

                                   In addition, the Chicago District established an investigative
                                   team at the district level to investigate all complaints.




2
  The Voice of the Employee survey was a data collection instrument that the Postal Service had established to help
improve workplace relationships and to ensure all employees were treated with fairness, felt safe in their workplace,
had opportunities to participate in improvements, and took pride in being Postal Service employees.



                                                          2
                                               Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                                    LH-AR-03-001
 and Detroit Districts – Great Lakes Area




    Employees Appropri-              We found that employees responsible for sexual
    ately Disciplined or             harassment or inappropriate actions/comments were
    Corrective Action                appropriately disciplined, or corrective action was taken.
    Taken
                                     Equal Employment Opportunity Commission 1990 and
                                     1999 guidelines recommended agencies take immediate
                                     and appropriate corrective action, including discipline, when
                                     sexual harassment occurred. Postal Service policy stated
                                     employees engaged in sexual harassment would be subject
                                     to disciplinary action, up to and including removal. The
                                     policy also stated that disciplinary action might result even if
                                     the conduct was not sexual harassment as defined by the
                                     law, but was inappropriate and of a sexual nature.

                                     Our review of formal and informal3 complaints in the
                                     Chicago and Detroit Districts showed that:

                                          •    Of the 18 formal and informal sexual harassment
                                               complaints filed in the Chicago District, sexual
                                               harassment or inappropriate actions/comments were
                                               not substantiated in 4, and substantiated in 3. For
                                               the remaining 11 complaints, management did not
                                               conduct an inquiry or investigation to determine
                                               whether sexual harassment or inappropriate
                                               actions/comments had occurred, and thus no
                                               discipline or corrective action was considered or
                                               taken.

                                               – In the three substantiated complaints,
                                                 three employees were involved and all were
                                                 appropriately disciplined or corrective action was
                                                 taken.

                                           •   Of the four formal sexual harassment complaints
                                               filed in the Detroit District, sexual harassment or
                                               inappropriate actions/comments were not
                                               substantiated in one, and substantiated in three.

                                               – In the three substantiated complaints,
                                                 three employees were involved and all were
                                                 appropriately disciplined or corrective action was
                                                 taken.

3
    The term “informal” complaint refers to those not filed using the Equal Employment Opportunity process.



                                                           3
                                                Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                          LH-AR-03-001
 and Detroit Districts – Great Lakes Area


    Managers/                   We found that managers/supervisors found responsible for
    Supervisors                 sexual harassment or inappropriate actions/comments were
    Considered for              considered for exclusion from the Pay for Performance
    Exclusion from Pay          Program4 in the Chicago and Detroit Districts.
    for Performance
                                Equal Employment Opportunity Commission guidelines
                                included a reduction in wages as an effective corrective
                                measure to stop harassment and ensure it does not
                                reoccur. Postal Service policy stated an employee whose
                                conduct was clearly unacceptable may be excluded from
                                the Pay for Performance Program. The Postal Service
                                described unacceptable behavior as “notoriously disgraceful
                                or immoral conduct, or other conduct prejudicial to the
                                Postal Service.”

                                We found:

                                    •    Three employees in the Chicago District were found
                                         responsible for sexual harassment or inappropriate
                                         actions/comments. One was a manager/supervisor
                                         who was eligible for the Pay for Performance
                                         Program and was excluded.

                                    •    Three employees in the Detroit District were found
                                         responsible for sexual harassment or inappropriate
                                         actions/comments. Two were managers/supervisors
                                         who were eligible for the Pay for Performance
                                         Program. One was excluded and one was
                                         considered for exclusion.

                                             – The manager/supervisor received $3,642 in
                                                 FY 2001. District management stated the
                                                 demotion of the manager/supervisor from an
                                                 Executive and Administrative Schedule
                                                 level 22 to level 16 was sufficient discipline.




4
 The Pay for Performance Program, formerly referred to as the Economic Value Added Program, is an incentive
award program for nonbargaining employees. The amount of money received by each employee is based on a group
achievement of performance targets and financials measurements.



                                                     4
                                          Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                                  LH-AR-03-001
 and Detroit Districts – Great Lakes Area




 Most Complaints Not Our audit disclosed that 13 of the 22 complaints were not
 Effectively Addressed effectively addressed in the Chicago and Detroit Districts.
                       Equal Employment Opportunity Commission guidelines
                       defined an “effective” investigation as a prompt, thorough,
                       and impartial review with documented evidence. Postal
                       Service policy required managers to conduct sexual
                       harassment inquiries promptly and investigate all
                       complaints, and document “serious” complaints with
                       detailed evidence.5

                                   We found that:

                                        •   Postal Service national policy did not require that “all”
                                            complaints be documented—only those that
                                            managers believed were “serious.”

                                        •   Of the 18 formal and informal complaints filed in the
                                            Chicago District, 6 were effectively addressed and
                                            12 were not.

                                            – For the 12 not effectively addressed, 11 were not
                                                 investigated and 1 was not documented.

                                            – District management stated that for the 11 not
                                                 investigated, the complaints were filed directly
                                                 with the Equal Employment Opportunity office and
                                                 that office did not notify management of the
                                                 complaints, which precluded them from
                                                 conducting their own investigation.

                                        •   Of the four formal complaints filed in the Detroit
                                            District, three were effectively addressed and one
                                            was not.

                                             – For the one not effectively addressed, it was not
                                                  documented.




5
  Publication 552 was revised effective September 2001, and replaced the term “serious” with the statement “some
complaints can be resolved simply and directly between the parties without the need for a formal written record.” The
revised policy also provided that managers/supervisors needed to decide early in the process whether formal
documentation was warranted, and that a good rule of thumb was when in doubt, document.



                                                         5
                                              Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                                    LH-AR-03-001
 and Detroit Districts – Great Lakes Area



                                    During this audit, Chicago District management advised us
                                    action was taken to correct the problem we identified.
                                    District management stated they established a procedure
                                    for all complaints filed directly with the Equal Employment
                                    Opportunity office with possible sexual harassment
                                    implications to be referred to the district Human Resources
                                    manager.

                                    Complaints not effectively addressed could result in liability
                                    because the Postal Service cannot demonstrate that it
                                    exercised reasonable care to prevent and promptly correct
                                    harassing behavior. We believe the lack of a Postal Service
                                    policy requiring documentation of all complaints and the lack
                                    of communication between the Equal Employment
                                    Opportunity office and district management may have been
                                    factors. We will address these issues in a separate report.6

    Recommendation                  We recommend the vice president, Great Lakes Area
                                    Operations, instruct the Chicago and Detroit District
                                    managers to establish controls to ensure:

                                             1. Managers and supervisors effectively address all
                                                sexual harassment complaints and inappropriate
                                                actions/comments of a sexual nature and fully
                                                document detailed evidence of the actions taken
                                                to address complaints.

    Management’s                    Management agreed with the conclusion and
    Comments                        recommendation and stated sexual harassment and internal
                                    management investigation training was provided to
                                    representatives from all the districts in the Great Lakes Area
                                    in September and October 2002. They said the training
                                    consisted of the legal elements of sexual harassment and
                                    how recent case law had affected the Postal Service
                                    regarding employer liability; and assisting investigators to
                                    identify and interview witnesses, gather documentation and
                                    testimony, assist witnesses in writing a declaration, and
                                    writing the final fact finding report.




6
 We will issue a capping report on the audit results for the nine areas we visited, including the Great Lakes Area,
where recommendations regarding national policy will be made to the senior vice president, Human Resources.



                                                          6
                                               Restricted Information
Sexual Harassment Prevention Measures in the Chicago                           LH-AR-03-001
 and Detroit Districts – Great Lakes Area




 Recommendation               We recommend the vice president, Great Lakes Area
                              Operations, instruct the Chicago and Detroit District
                              managers to establish controls to ensure:

                                      2. The Equal Employment Opportunity office notify
                                         district management of all complaints of sexual
                                         harassment or inappropriate actions/comments of
                                         a sexual nature.

 Management’s                 Management agreed with the conclusion and
 Comments                     recommendation and provided copies of documents
                              distributed at a July 2002 meeting for district Human
                              Resource managers. These documents included a sample
                              letter to be issued to all non-bargaining employees
                              explaining the law and Postal Service policy regarding
                              sexual harassment, the duty to report allegations, and the
                              establishment of the manager, Human Resources as the
                              district control point; and a sample memo format to be
                              utilized to report allegations of sexual harassment to the
                              managers of Human Resources. In addition, they provided
                              a copy of a letter dated December 23, 2002, that was sent
                              to district Human Resource managers reiterating the
                              instruction that the district Equal Employment Opportunity
                              office must notify the manager, Human Resources upon
                              receipt of an Equal Employment Opportunity complaint
                              alleging sexual harassment.

 Evaluation of                Management’s actions taken or planned are responsive to
 Management’s                 recommendations 1 and 2 and should resolve the issues
 Comments                     identified in the report.




                                                   7
                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                 LH-AR-03-001
 and Detroit Districts – Great Lakes Area




    File Retention            Our audit found there was no Postal Service policy
    Adequate, Storage         regarding the retention time for informal complaint files.
    Needed Improvement        However, both districts retained files indefinitely, and the
                              storage of files was adequate in Chicago, but not in Detroit.

                              Equal Employment Opportunity Commission guidance
                              stated formal sexual harassment complaint files should be
                              retained for at least 4 years after resolution of the complaint.
                              Postal Service policy stated once an inquiry/investigation
                              was conducted, files should be forwarded for storage, to the
                              district Human Resources manager. According to a
                              headquarters senior Postal Service manager, the intent of
                              this policy was to centrally locate the files with the Human
                              Resources manager.

                              We found that the Detroit District did not store informal
                              complaint files in a central location and some files could not
                              be located when we requested them. Management
                              subsequently located the files in the facilities where the
                              complaints were filed.

                              Retaining and storing informal complaint files in a central
                              location would ensure file availability if needed to mitigate
                              liability. We will address the need for a national retention
                              policy in a separate report.7

    Recommendation            We recommend the vice president, Great Lakes Area
                              Operations, instruct the Detroit District manager to establish
                              controls to ensure:

                                      3. All informal complaint files are stored in a central
                                         location.

    Management’s              Management agreed with the conclusion and
    Comments                  recommendation and stated district Human Resource
                              managers were established as the district control points for
                              allegations of sexual harassment, in July 2002, and that part
                              of their duties was the responsibility for central file retention.




7
    See footnote 6.



                                                   8
                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago                         LH-AR-03-001
 and Detroit Districts – Great Lakes Area




 Evaluation of                Management’s action is responsive to the recommendation
 Management’s                 and should resolve the issues identified in this report.
 Comments




                                                   9
                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                                  LH-AR-03-001
 and Detroit Districts – Great Lakes Area



          APPENDIX A. OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective was to determine if the Chicago and Detroit Districts, in the Great Lakes
Area, implemented adequate policies and procedures to prevent sexual harassment8 in
the workplace and to effectively address sexual harassment complaints to mitigate
liability. Our district selections were based on interviews with the senior vice president,
Human Resources; vice president, Diversity Development; and the Great Lakes Area
vice president. We also considered the number of closed formal sexual harassment
complaints in each of the ten Great Lakes Area districts.

To accomplish our objective, we reviewed applicable laws, policies, procedures, and
other documents including Equal Employment Opportunity Commission guidelines;
Postal Service national policies, and the Great Lakes Area, and Chicago and Detroit
District policies for preventing sexual harassment in the workplace. We also reviewed
Postal Service national policy regarding the Pay for Performance Program. In addition,
we reviewed previously issued OIG reports related to sexual harassment issues.
Further, we interviewed Postal Service Headquarters, Great Lakes Area, and Chicago
and Detroit District officials.

To determine if adequate policies and procedures were in place to prevent sexual
harassment from occurring in the workplace, we identified Equal Employment
Opportunity Commission key recommendations to agencies regarding policies and
procedures that should be in place to prevent sexual harassment and reduce the risk of
agency liability. We then reviewed the Postal Service national, Great Lakes Area, and
Chicago and Detroit District policies and procedures to determine if the
recommendations were included.

To determine whether district managers effectively addressed informal sexual
harassment complaints to mitigate liability, we analyzed the documentation contained in
formal and informal complaint files that were filed and closed9 in FYs 2000 and
2001,10 for the two districts we selected. We recorded information related to
promptness, thoroughness, impartiality, and the level of documentation. These fiscal
years were chosen because they were the most recent and complete fiscal years at the
time of our fieldwork. The number of formal and informal closed complaints was
obtained from the Postal Service Equal Employment Opportunity case file database and
district management, respectively. We then excluded those complaints where the
employees filed their complaints directly with the Equal Employment Opportunity office
and requested confidentiality. These were excluded because honoring the request for
8
  For the purpose of this report, we used the legal definition of sexual harassment as unwelcome sexual conduct that
is a term or a condition of employment (29 C.F.R. § 1604.11(a)). In addition, we included the Postal Service policy
regarding inappropriate actions/comments of a sexual nature when reviewing sexual harassment complaint files.
9
  Sexual harassment complaints may be considered closed for a number of reasons including (1) the
inquiry/investigation was completed, (2) a settlement had been reached, (3) the complaint was withdrawn, or
(4) discipline or corrective action was taken.
10
   We used Postal Service fiscal years that started September 11, 1999, and ended September 7, 2001.



                                                        10
                                              Restricted Information
Sexual Harassment Prevention Measures in the Chicago                                              LH-AR-03-001
 and Detroit Districts – Great Lakes Area


confidentiality precluded the Equal Employment Opportunity office from notifying district
management that a complaint had been made. This in turn precluded management
from conducting an investigation. We determined there were 22 closed complaint files
as follows:

                                                        Complaints              Total Complaints
                         District
                                                     Formal   Informal             Per District
          Chicago                                      13         5                    18
          Detroit                                       4         0                     4
           Total                                       17         5                    22

We also determined if the retention and storage of informal files were adequate using
Postal Service national, area, and district policies as well as Equal Employment
Opportunity Commission guidelines.

In addition, we determined whether employees found responsible for sexual harassment
received appropriate discipline using Equal Employment Opportunity Commission
guidelines, Postal Service policies and procedures, and some elements of the Douglas
Factors.11 We included in this determination whether or not managers or supervisors
found responsible for sexual harassment or inappropriate actions/comments were
considered for exclusion from the Pay for Performance Program.

This audit was conducted from February 2002 through January 2003 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
conclusions and observations with appropriate management officials and included their
comments, where appropriate.




11
  The Douglas Factors were developed as a result of case law (Douglas versus the Veterans’ Administration) where
the Merit Systems Protection Board ruled that management must document certain factors to be considered in
making a determination of appropriate disciplinary action.



                                                       11
                                             Restricted Information
Sexual Harassment Prevention Measures in the Chicago             LH-AR-03-001
 and Detroit Districts – Great Lakes Area



                  APPENDIX B. MANAGEMENT’S COMMENTS




                                                  12
                                        Restricted Information
Sexual Harassment Prevention Measures in the Chicago             LH-AR-03-001
 and Detroit Districts – Great Lakes Area




                                                  13
                                        Restricted Information
